SUPREME COURT

F1L
JAN 1 ;i 2021
Jorc e Nava ■rete Clerk
Dep jty

S265194

IN THE SUPREME COURT OF CALIFORNIA
En Banc
In re LONZELL GREEN on Habeas Corpus.

The petition for writ of habeas corpus is denied. (See In re Robb ns (1993) 18
Cal.4th 770, 780 [courts will not entertain habeas corpus claims that are un :imely]; In re
Clark (1993) 5 Cal.4th 750, 767-769 [courts will not entertain habeas corp is claims that
are successive].)

CANTIL-SAKAUYE
ChiefJustice

